<html>
<title> - NOMINATION OF DAVID B. BUCKLEY TO BE INSPECTOR GENERAL OF THE CENTRAL INTELLIGENCE AGENCY</title>
<body><pre>[Senate Hearing 111-856]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-856
 
                     NOMINATION OF DAVID B. BUCKLEY 
                     TO BE INSPECTOR GENERAL OF THE 
                      CENTRAL INTELLIGENCE AGENCY 

=======================================================================

                                HEARING

                               BEFORE THE

                    SELECT COMMITTEE ON INTELLIGENCE

                                 OF THE

                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                      TUESDAY, SEPTEMBER 21, 2010

                               __________

      Printed for the use of the Select Committee on Intelligence


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

66-164 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 








































                    SELECT COMMITTEE ON INTELLIGENCE

           [Established by S. Res. 400, 94th Cong., 2d Sess.]

                 DIANNE FEINSTEIN, California, Chairman
              CHRISTOPHER S. BOND, Missouri, Vice Chairman

JOHN D. ROCKEFELLER IV, West         ORRIN G. HATCH, Utah
    Virginia                         OLYMPIA J. SNOWE, Maine
RON WYDEN, Oregon                    SAXBY CHAMBLISS, Georgia
EVAN BAYH, Indiana                   RICHARD BURR, North Carolina
BARBARA A. MIKULSKI, Maryland        TOM COBURN, Oklahoma
RUSSELL D. FEINGOLD, Wisconsin       JAMES E. RISCH, Idaho
BILL NELSON, Florida
SHELDON WHITEHOUSE, Rhode Island
                     HARRY REID, Nevada, Ex Officio
                 MITCH McCONNELL, Kentucky, Ex Officio
                    CARL LEVIN, Michigan, Ex Officio
                    JOHN McCAIN, Arizona, Ex Officio
                              ----------                              
                     David Grannis, Staff Director
                Louis B. Tucker, Minority Staff Director
                    Kathleen P. McGhee, Chief Clerk

































                                CONTENTS

                              ----------                              

                           SEPTEMBER 21, 2010

                           OPENING STATEMENTS

Feinstein, Hon. Dianne, Chairman, a U.S. Senator from California.     1
Bond, Hon. Christopher S., Vice Chairman, a U.S. Senator from 
  Missouri.......................................................     4

                                WITNESS

Buckley, David B., Inspector General of the Central Intelligence 
  Agency-Designate...............................................     5
    Prepared statement...........................................     7

                         SUPPLEMENTAL MATERIAL

Letter from Sam Nunn, Dated September 15, 2010, to Senator Dianne 
  Feinstein......................................................     3
Questionnaire for Completion by Presidential Nominees............    18
Prehearing Questions and Responses...............................    32
Letter from Robert I. Cusick, Office of Government Ethics, Dated 
  August 12, 2010, to Senator Dianne Feinstein, Transmitting 
  Public Financial Disclosure Report.............................    41
Letter from David B. Buckley, Dated September 24, 2010, to 
  Senator Dianne Feinstein.......................................    49
Letter from David B. Buckley, Dated June 17, 2010, to Stephen W. 
  Preston........................................................    51


                     NOMINATION OF DAVID B. BUCKLEY
                     TO BE INSPECTOR GENERAL OF THE
                      CENTRAL INTELLIGENCE AGENCY

                              ----------                              


                      TUESDAY, SEPTEMBER 21, 2010

                                       U.S. Senate,
                          Select Committee on Intelligence,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:58 p.m., in 
Room SD-124, Dirksen Senate Office Building, the Honorable 
Dianne Feinstein (Chairman of the Committee) presiding.
    Committee Members Present: Senators Feinstein, Wyden, 
Whitehouse, and Bond.

 OPENING STATEMENT OF HON. DIANNE FEINSTEIN, CHAIRMAN, A U.S. 
                    SENATOR FROM CALIFORNIA

    Chairman Feinstein. The Committee will come to order.
    We meet today in open session to consider the President's 
nomination of Mr. David Buckley to become the Inspector General 
of the Central Intelligence Agency. As the Committee knows, 
this position has remained vacant since the retirement of John 
Helgerson in March, 2009.
    In April, 2010, Vice Chairman Bond and I wrote a letter to 
President Obama pointing out the importance of the position and 
the need to nominate and confirm a strong, independent auditor 
and investigator at the CIA. The President has nominated Mr. 
Buckley, who has had more than 30 years of experience in 
government service that should provide him with an excellent 
background for the challenges he'll face when confirmed.
    Before getting to Mr. Buckley's bio, I'd like to make just 
a few comments on the very unique role of his position. 
Inspectors General are critical in every department and agency. 
They conduct audits and inspections to ensure appropriate use 
of taxpayer money, compliance with the law, and provide an 
independent assessment of how well an agency is carrying out 
its mission. As circumstances warrant, the Inspector General 
carries out investigations into allegations of wrongdoing and 
makes recommendations for accountability, as warranted.
    These functions are all the more important in an agency 
that, by design and necessity, shields its operations from the 
public and the press, and even from the large majority of its 
own personnel.
    This Committee has seen firsthand the importance of the CIA 
Inspector General function. While we can't talk about many of 
the reports and audits that this office has produced, it is no 
understatement to say that they've had a major impact on the 
Committee's understanding of CIA programs and, at times, have 
led directly to major changes in those programs.
    The 2004 special review into CIA detention and 
interrogation practices, conducted under the auspices of former 
IG John Helgerson, was a watershed moment. The report raised 
major questions about the program's legality and compliance, 
and led to changes and additional reviews of this program. 
Other recent CIA Inspector General reports have recommended 
changes to operations, uncovered misallocation and poor use of 
funds, and recommended CIA officers be held accountable for 
problems it found in covert action programs.
    To a degree, the Committee relies on the CIA to bring 
forward to us notifications of its operations, analysis, and 
its problems. While these notifications alert us of an issue, 
we on the Committee are frequently reliant on the CIA IG to use 
the resources of the office to explain matters fully and 
accurately. We are also reliant on the office of the Inspector 
General to uncover issues that might not be immediately 
apparent and to do an independent review of those issues. 
Ideally, the Committee and the Inspector General can play a 
mutually beneficial role, with each side bringing forward 
matters for the other to review.
    As I noted, for the past 18 months the CIA has been without 
a Senate-confirmed Inspector General. I want to note the 
Committee's appreciation to Patricia Lewis, the Deputy CIA 
Inspector General, who has acted as the IG and run the IG 
office during this vacancy. I imagine that she, as much as 
anyone, is happy to see that Mr. Buckley will, I trust, be 
confirmed shortly.
    David Buckley has been a career public servant. He enlisted 
on active duty with the Air Force in 1976, specializing in 
investigations. He continued service with the Air Force Office 
of Special Investigations as a civilian in 1984, working for 
three years before moving to the Senate Permanent Subcommittee 
on Investigations under then-Chairman Sam Nunn. I'll insert in 
the record, at this point, a letter to the Committee from 
former Senator Nunn recommending Mr. Buckley.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Following eight years on the Subcommittee, including time 
as chief investigator, Mr. Buckley worked as the special 
assistant to the Inspector General of the Department of 
Defense, at the General Accounting Office, and at the Treasury 
Department for seven years, mostly as Assistant Inspector 
    General for Investigations.Mr. Buckley then served from 
2005 to 2007 as the minority staff director of the House 
Permanent Select Committee on Intelligence. As such, he had a 
purview of the entire intelligence community, including the 
CIA, and developed an understanding from the Congressional 
point of view of the important relationship that Committees 
have with the CIA Inspector General.
    Finally, Mr. Buckley has worked as a senior manager at 
Deloitte Consulting since 2007, consulting in the national 
security arena.
    In short, David Buckley has spent 34 years in a career 
focused on conducting oversight, much of it in the defense and 
intelligence areas. He has agreed to fill this important 
position and I believe his background makes him an excellent 
candidate.
    I'd now like to turn to Vice Chairman Bond, and then ask 
Mr. Buckley to make any introductions he wishes before turning 
to his opening statement.

OPENING STATEMENT OF HON. CHRISTOPHER S. BOND, VICE CHAIRMAN, A 
                   U.S. SENATOR FROM MISSOURI

    Vice Chairman Bond. Thank you, Madam Chair.
    Mr. Buckley, congratulations on your nomination and for 
appearing before the Committee. I extend a warm welcome to your 
family here, and those others who are friends and supporters.
    And it's clear from the discussions we had and your 
statement for the record that you really understand the 
importance of the position for which you've been nominated. 
Now, as the Chair said, we in no way minimize the work and the 
role of other inspectors general, but at the CIA, given the 
extreme sensitivity, the necessary secrecy of the intelligence 
mission, the IG position is extremely important.
    If confirmed as the next Inspector General, you'll have the 
weighty responsibility of ensuring the Director and 
Congressional Intelligence Committees are fully informed of any 
violations of the law or deficiencies in CIA programs. That 
means you would often have the unenviable task of determining 
whether or not there are such violations. Now that may not make 
you the most popular person at the Agency, but it does mean 
that you will be expected, and we will expect you, to be fully 
impartial and above reproach in your own conduct.
    You'll also be responsible for recommending policies to 
promote economy, efficiency and effectiveness of the agency. 
That's always a good buzz word. I've always heard people talk 
about it; I've never seen them do it. But, we wish you luck.
    At a time when the taxpayers are stretched thin and our 
federal deficit has skyrocketed, every federal agency has to 
tighten its belt and become more efficient. As the Inspector 
General, you are expected to play a key role helping the CIA do 
its part to cut spending without cutting back on our national 
security interests.
    Now, in your statement for the record you noted that you 
believe the CIA Inspector General ``needs to establish and 
maintain quality communications with the Intelligence 
Committees,'' and it's extremely imperative that Congress be 
kept fully informed. Well, we could not agree more. That's the 
heart of the matter. I ask that whenever you find yourself in a 
situation considering whether to inform Congress of some 
difficult issue, please err on the side of disclosure. If you 
do so, you will find this Committee a supportive partner. If 
you choose not to, that's not a good way to start off.
    Because the CIA's work is classified, it's not often that 
the American people get to see the work that you do. Today's 
hearing is your opportunity to give everyone from my 
colleagues, the people here in the audience, an idea of who you 
are and how you intend to perform the role.
    Again, as the Chair has indicated, you have a wealth of 
experience--the Department of Defense, Department of Treasury, 
both houses of Congress--which qualify you well for the 
position. Over three decades you've established a record of 
distinguished public service.
    In short, I and the rest of the Committee have the highest 
expectations for your performance. I look forward to hearing 
more about your views about this demanding, important position 
and how you plan to tackle its challenges. Congratulations on 
your nomination.
    Thank you, Madam Chair.
    Chairman Feinstein. Thank you very much, Mr. Vice Chairman.
    Now I'd like to proceed with several pro forma questions 
and one other, and then ask you, Mr. Buckley, to make any 
introductions you'd care to and a statement, if you wish.
    Here are the questions: Do you agree to appear before the 
Committee here or in other venues when invited?
    Mr. Buckley. I do.
    Chairman Feinstein. Do you agree to send officials from 
your office to appear before the Committee and designated staff 
when invited?
    Mr. Buckley. I do and I will.
    Chairman Feinstein. Do you agree to provide documents or 
any other materials requested by the Committee in order for it 
to carry out its oversight and legislative responsibilities?
    Mr. Buckley. I do.
    Chairman Feinstein. Will you ensure that your office 
provides such material to the Committee when requested?
    Mr. Buckley. I will.
    Chairman Feinstein. Do you agree to inform and fully brief, 
to the fullest extent possible, all members of this Committee 
rather than only the Chairman and Vice Chairman on intelligence 
activities and covert actions?
    Mr. Buckley. I will.
    Chairman Feinstein. Now, one other question: Is it your 
intention to seek a waiver or accept a waiver, if offered, 
allowing you to receive a federal retirement annuity in 
addition to the statutory salary for the position to which you 
have been nominated?
    Mr. Buckley. It is not.
    Chairman Feinstein. Thank you very much.
    If you'd like to proceed and introduce your family and then 
make us any statement you might wish to do.

  STATEMENT OF DAVID B. BUCKLEY, CENTRAL INTELLIGENCE AGENCY 
                  INSPECTOR GENERAL-DESIGNATE

    Mr. Buckley. Thank you, Madam Chair.
    I would like to introduce my wife of 26 years, Janice; my 
daughter, my mother, my youngest brother and my stepfather. 
They've all traveled here today to be with me. My two sons are 
away at college--further away than my daughter is--and they're 
hopefully watching on the Internet. But I'm really pleased, 
Madam Chairman, that they're able to join me today, along with 
several friends in the audience.
    Chairman Feinstein. Thank you. And we very much welcome 
them. It's a delight to have you here.
    Please go ahead with your statement.
    Mr. Buckley. Thank you.
    Madam Chairman, Mr. Vice Chairman and members of the 
Committee, thank you for giving me the opportunity to appear 
here today before you as you consider my nomination to be the 
Inspector General of the Central Intelligence Agency.
    I am deeply honored that President Obama has nominated me 
for consideration for this position.
    At the risk of being redundant, during more than three 
decades of government service--including 31 years as a direct 
government employee--I have married, have three children, have 
been and remain active in my community and my church, and count 
myself blessed in those endeavors. It would be my honor to 
continue serving the country as the Inspector General, Central 
Intelligence Agency, if confirmed for this position.
    I would like to briefly speak to my background and 
qualifications and then share some observations with you 
regarding the role of the Inspector General, CIA.
    As you indicated, Madam Chairman, I enlisted into active 
service to the military in 1976 and went directly into law 
enforcement and criminal investigative work for the Air Force. 
I was honorably discharged and remained in the reserves for a 
few more years, but became a civilian special agent and 
counterespionage case officer with the Air Force Office of 
Special Investigations.
    I conducted criminal investigations and counterespionage 
operations. I received specialized investigative training and 
was also trained in the conduct of clandestine human 
intelligence collections by the Defense Intelligence and 
Central Intelligence Agencies.
    In 1987, I became a professional staff member of the Senate 
Governmental Affairs Committee and as investigator for the 
Permanent Subcommittee on Investigations, where I had the honor 
to serve Senator Sam Nunn and the other members for seven 
years, conducting investigations and oversight of government 
operations and other matters of import to the United States 
Senate.
    Then from 1995 to 1998, I was the special assistant to the 
Department of Defense Inspector General, and, while there, 
realizing the need for more oversight of the Department of 
Defense intelligence enterprise, worked to establish a position 
of Assistant Inspector General for Intelligence Review.
    In 1998, I briefly served as the Assistant Director for 
Defense and National Security Investigations at GAO's Office of 
Special Investigations, until later that year when I was asked 
by the Department of Treasury to help stand up the newly 
authorized Treasury Inspector General for Tax Administration. I 
spent six years at the IG for Tax Administration as an 
Assistant Inspector General for Investigations.
    In 2005, I was asked by Ranking Member Jane Harman of the 
House Permanent Select Committee on Intelligence to join the 
staff and became the minority staff director for the 109th 
Congress.
    Since retiring from federal service in 2007, I have been 
working as a consultant for the Department of Homeland 
Security, the Department of Defense and intelligence community 
agencies.
    I believe the role and mission of Inspector General is 
important in any agency, but absolutely vital at the Central 
Intelligence Agency. The Inspector General reports to the 
Director and is an essential element of the proper functioning 
of the agency.
    The director needs an independent oversight element to 
provide unbiased assessments, based on the professional tools 
that auditors, investigators and inspectors bring. The CIA is 
involved in international high-risk operations and activities, 
the vast majority of which are done in secret in order to 
protect them from detection by our adversaries. These factors, 
as well as the consequences of any abuse in such programs, 
demand that oversight be both vigorous and sensitive.
    Furthermore, in the absence of transparency and public 
scrutiny, the CIA relies on the Inspector General, as well as 
Congress' Intelligence Committees, to provide independent 
oversight. In this context, the Inspector General's Office is 
often the only organization able to probe the agency's 
intelligence programs to detect instances of fraud, waste or 
abuse.
    In addition to reporting to the Director, I believe the CIA 
Inspector General needs to establish and maintain quality 
communications with the Senate and House Intelligence 
Committees. I believe it is critical that Congress be kept 
informed of the issues of concern to the Inspector General and 
that the Inspector General also be responsive to concerns 
raised by the Congress.
    An appropriate level of communication is also necessary 
between the CIA Inspector General and other inspectors general 
of the intelligence community and the other members of the 
Council of Inspectors General on Integrity and Efficiency, so 
that the CIA can also benefit from government-wide best 
practices.
    Madam Chairman, Vice Chairman Bond, Senators, the role of 
the Inspector General is a difficult job to do well. The job 
requires a great deal of skill, tact and professionalism. If 
confirmed, I pledge to do my best in the execution of those 
responsibilities in leading the office and in working with the 
Agency's leadership, its employees and the Congress.
    Before I close, I'd like to thank the Committee staff for 
their assistance and hard work. And I know that, if confirmed, 
I'll be working closely with them, as well as the Members. I 
look forward to that.
    Thank you again for the opportunity to testify before you 
today and I'll do my best to answer your questions.
  Prepared Statement of David B. Buckley, Central Intelligence Agency 
                      Inspector General-Designate
    Madam Chairman, Mr. Vice Chairman and Members of the Committee, 
thank you for giving me the opportunity to appear before you today as 
you consider my nomination to be the Inspector General of the Central 
Intelligence Agency.
    I am deeply honored that President Obama has nominated me for 
consideration to this position. Before I get too far into my testimony, 
I would ask your indulgence and allow me to recognize my wife of 26 
years, Janice, who is here today, and the several friends who have come 
to the hearing to show their support for me. Our three children are in 
college and were unable to travel here today. I am flattered by and 
thankful for the support of my family and friends.
    During more than three decades in government service--including 31 
years as a direct government employee--I have married, had three 
children (now all in college), have remained active in service to my 
community and church, and count myself blessed in all those endeavors. 
It would be my honor to continue serving my country as the CIA IG if 
confirmed for this position.
    Madam Chairman, I would like to speak to my background and 
qualifications, and then share some observations about the role of the 
Inspector General, CIA.
    Madam Chairman, I entered active military service in 1976. I spent 
eight years in law enforcement and investigations for the Air Force, 
and then was honorably discharged and became a civilian special agent 
and counterespionage case officer for the Air Force Office of Special 
Investigations. I conducted criminal investigations and 
counterespionage operations with the FBI. I received specialized 
investigative training and I was trained in clandestine human 
intelligence operations by the DIA and CIA. In 1987, I became a 
professional staff member at the Senate Governmental Affairs Committee 
as an investigator for the Permanent Subcommittee on Investigations, 
where I had the honor of working for PSI Chairman Senator Sam Nunn for 
seven years, conducting investigations and oversight of government 
operations and other matters of import to the Senate. Then, from 1995-
1998, I was the special assistant to the Department of Defense 
Inspector General and, realizing the need for more oversight of the DoD 
intelligence enterprise, worked to establish the position of Assistant 
Inspector General for Intelligence Review there. In 1998, I briefly 
served as the Assistant Director for Defense and National Security 
investigations at GAO's Office of Special Investigations until later 
that year I was asked to help stand up the newly authorized Treasury 
Inspector General for Tax Administration. I spent six years at TIGTA as 
the Assistant Inspector General for Investigations. In 2005, I was 
asked by then Ranking Member Jane Harman of the House Permanent Select 
Committee on Intelligence to join the staff, where I became the 
Minority Staff Director for the 109th Congress. Since 2007, I have been 
working as a consultant for DHS, DoD and intelligence community 
agencies.
    Madam Chairman, I believe the role and mission of Inspector General 
is important in any agency, but absolutely vital at the Central 
Intelligence Agency. The Inspector General reports to the Director and 
is an essential element of the proper functioning of the Agency. The 
Director needs an independent oversight element to provide unbiased 
assessments, based on the professional tools that auditors, 
investigators and inspectors bring. The CIA is involved in 
international high-risk operations and activities, the vast majority of 
which are done in secret and often with an intentionally deceptive 
cover in order to protect them from detection by our adversaries. These 
factors, as well as the consequences of any abuse in such programs, 
demand that oversight be both vigorous and sensitive. Furthermore, in 
the absence of transparency and public scrutiny, the CIA relies on the 
IG, as well as Congress' intelligence committees, to provide 
independent oversight. In this context, the Inspector General's office 
is often the only organization able to probe the Agency's intelligence 
programs to detect instances of waste, fraud and abuse.
    In addition to reporting to the Director, I believe that the CIA IG 
needs to establish and maintain quality communication with the Senate 
and House intelligence committees. I believe it is critical that 
Congress be kept informed of the issues of concern to the IG, and that 
the IG also be responsive to concerns raised by Congress. An 
appropriate level of communication is also necessary between the CIA IG 
and the other inspectors general in the intelligence community, as well 
as members of the Council of Inspectors General on Integrity and 
Efficiency, so that the CIA can benefit from government-wide best 
practices.
    Madam Chairman, as someone recently observed, the role of the 
Inspector General is a difficult job to do well and an easy job to do 
poorly. The job requires a great deal of skill, tact, and 
professionalism. If confirmed, I pledge to do my best in the execution 
of those responsibilities in leading the office and in working with the 
Agency's leadership, its employees and the Congress. Thank you again 
for the opportunity to testify today, and I will do my best to answer 
your questions.

    Chairman Feinstein. Thank you very much. I appreciate it.
    There will be five-minute rounds. And so if you can keep 
your answers relatively concise, that will be appreciated.
    The size of the intelligence budget has doubled since 
September 11. While the CIA's budget is classified, it's grown 
enormously as well. A directive signed by President Bush in 
November of 2004 instructed the CIA to increase its case 
officers and all-source analysts by 50 percent and to double 
its technical personnel. The number of contractors employed by 
the Agency, often to conduct what at least I believe is an 
inherently governmental function, skyrocketed until Director 
Hayden and now Director Panetta have started to put some 
controls in place.
    Here's the question. How would you see the role of the 
Inspector General in reviewing and making recommendations on 
the overall size of the CIA, its budget, its personnel levels 
and its use of contractors?
    Mr. Buckley. Thank you, Madam Chairman.
    I would approach the task of assisting the Director in 
reviewing the basic missions and functions of the Central 
Intelligence Agency and looking at those issues. It's an agency 
that's been tasked with huge demands in this era of high risk 
to the nation and in defending our nation.
    But a risk-based approach in the prioritization of mission 
and in looking for economies and efficiencies that could be 
taken during that review is the way I would probably use my 
auditors and inspectors to focus on that problem set.
    Chairman Feinstein. I think it's fair to say, and I think 
the Vice Chairman would agree with me, that we believe there 
are entirely too many contractors doing inherent governmental 
functions, and that that should be closely examined.
    Second question: Based on your numerous positions in IG 
offices and as a congressional investigator, how do you 
approach the challenge of needing to conduct very detailed 
reviews that may result in referrals for prosecution or other 
disciplinary measures for agency personnel, without getting 
into an adversarial relationship?
    Mr. Buckley. Thank you.
    The role of investigators, or anyone that is engaged in 
oversight, is a particularly tricky job. It requires 
professionalism and independence of function and of mind.
    The nice thing about being a government investigator, 
particularly an internal affairs function, is that the vast 
majority of government employees are there to do their job, do 
it well, and do it honestly. And there are just a few, in my 
experience, that can cause trouble or have things go sideways.
    I think the vast majority of employees look forward to 
working with the independent investigators to make sure that 
their workplace is free of fraud, waste, abuse or other kinds 
of misconduct. And I intend on making sure that the Agency 
views the office of the Inspector General as a place that they 
can trust and respect, first and foremost.
    Chairman Feinstein. Thank you.
    Last quick question: Under an arrangement between the IG 
and the congressional Intelligence Committees in 2001, the CIA 
IG conducts a detailed review on each authorized covert action 
program every three years. This has been extremely helpful to 
our congressional oversight. Here's the question. Do you plan 
to continue this practice?
    Mr. Buckley. Yes, I do. And, in addition, I think that a 
top-to-bottom review, at least at a high level, is essential in 
planning the audits and inspections for the Office of Inspector 
General.
    So while a routine, every-three-years audit will obviously 
get some coverage of each of the covert actions, I'm also open 
to reviewing a covert action 12 months later, if that's what's 
required to make sure that things stay on track.
    Chairman Feinstein. Thank you.
    Mr. Buckley. Thank you, Madam Chair.
    Chairman Feinstein. I appreciate that answer.
    Mr. Vice Chairman.
    Vice Chairman Bond. Thank you, Madam Chair.
    I begin, obviously, with our own personal interest, and 
that's standards for notifying Congress. You're supposed to 
report any particularly serious or flagrant problems, abuses or 
deficiency immediately to the Director, and, within seven days 
of being informed, the Director must report them to the 
Committee.
    What standards would you apply in deciding whether a 
problem, abuse or deficiency is particularly serious or 
flagrant--the language of the requirement?
    Mr. Buckley. Yes, sir. I have given this some thought, and 
will review it again, if confirmed and in office.
    But a serious or flagrant event, in my mind, is at least 
any felony or felonious allegation, or could be, depending on 
the position of the person. If it's an allegation against an 
individual employee, it could be a serious misdemeanor, 
depending on the circumstances surrounding the incident.
    Deficiencies in operations could be wide-ranging, Mr. Vice 
Chairman. But you do have my commitment to probably be 
overnotifying the Committee, at least at first, so we can fine-
tune our relationship and communications.
    Vice Chairman Bond. Should the Committee ask you to 
testify, do you believe that you'd have to get the approval of 
the CIA Director to do so?
    Mr. Buckley. I do not.
    Vice Chairman Bond. Now, one of the things the Chair and I 
and the rest of the Committee have been very interested in is 
leaks. We've had too much damage; we've lost too much 
information because of leaks.
    What do you think, as an Inspector General, you can do to 
prevent leaks or discourage or uncover them?
    Mr. Buckley. Leaks are an incredibly large problem in our 
intelligence community and in our defense establishment. I 
think that the role of the Inspector General, first and 
foremost, is to review the policies and procedures and 
activities of the Agency, the CIA, in its efforts to stem 
leaks. And that's where I would probably start, with looking at 
their programs to determine whether those policies and efforts 
are being carried out in an appropriate manner or if we've got 
some better ideas that we could offer that could 
institutionalize training, certification and the like.
    Vice Chairman Bond. One of the motivating factors, I 
believe, in leaks, number one, they think it's an unpunished 
crime. They can get publicity for this, and be a real champion.
    What could be done, could you suggest anything as the IG, 
that would make the publicity or any such publicity less 
attractive or impinge upon their game plan?
    Mr. Buckley. I think regardless of the type of crime, but 
particularly in leaks, that the motivation of the offender is 
one of the hardest things to come to grips with as the 
investigation is taking place. And, Senator, as I presume you 
know, when leak investigations are opened, they're largely 
conducted by the Federal Bureau of Investigation and the Office 
of Security.
    Vice Chairman Bond. Yes.
    Mr. Buckley. Again, I think that the whole process of 
attempting to limit, understand and deter leaks probably needs 
to be taken. We need to take a look at the whole process--what 
are we doing to stem that tide and what additional things can 
we add to the programs and policies that would strengthen our 
ability to deter leaks.
    Vice Chairman Bond. As I understand it, most of these crime 
reports, though, do originate with the Agency and they may be 
expected to put together a preliminary case to turn it over to 
the DOJ. And I thought that's perhaps where you might come in, 
and if your work discovers that, you may be the one to 
institute it.
    Mr. Buckley. I will take a look at that. If confirmed, I 
will be happy to take a look at the soup-to-nuts program and 
also the role of the Office of Inspector General in the leaks 
avoidance.
    Vice Chairman Bond. A final question. Do you, from what you 
know of the legal authority, do you have sufficient clear 
authority for your statutory responsibilities and expectations 
for congressional independence and effectiveness, or do you see 
any clarified authorities that you might need?
    Mr. Buckley. Senator, I am familiar with the intelligence 
authorization bill that the Senate passed, and there are 
several provisions in that legislation that the Senate has 
passed that would give the office of the Inspector General 
maybe some further independence, or at least an appearance of 
independence, as it relates to the General Counsel and a 
separate appropriation request. I support both of those. I 
think those are both good ideas.
    Relative to other matters regarding the jurisdiction or 
authorities of the office, I would have to wait to get in place 
to review those. But I promise you I will do that, if 
confirmed, and get back to the Committee.
    Vice Chairman Bond. Thank you, Mr. Buckley. We appreciate 
the plug for our authorization bill. It's about time.
    [Laughter.]
    Mr. Buckley. Yes. Yes, sir.
    Chairman Feinstein. Senator Whitehouse.
    Senator Whitehouse. Thank you, Madam Chair.
    Mr. Buckley, welcome.
    Mr. Buckley. Thank you.
    Senator Whitehouse. And thank you for giving me some time 
the other day. I appreciate it; enjoyed the opportunity to meet 
you.
    The CIA's detention and interrogation program has been the 
subject of considerable inquiry by Congress, by the Department 
of Justice, presumably also internally. As a general 
proposition, as a matter of corporate governance, if you will, 
I believe that a chief executive official of an organization 
against which allegations have been made should have a chain of 
reporting to him- or herself about that incident that does not 
involve employees implicated in that incident or conduct.
    Do you agree with me that that's a fairly basic principle 
of corporate governance with respect to internal investigations 
of claims of misconduct?
    Mr. Buckley. I do, and I think, Senator, I believe that 
that's one of the essential roles of the Inspector General, to 
offer that independent capability to audit, investigate, and 
inspect.
    Senator Whitehouse. I would like to ask your assurance that 
when, as and if you are confirmed and take this position, that 
you familiarize yourself with the existing chain of reporting 
relating to the CIA's detention and interrogation program to 
the Director so that you are in a position to respond to 
questions from this Committee, from members of this Committee, 
about whether or not, as it presently is constituted it meets 
that standard of corporate governance. Are you willing to do 
that?
    Mr. Buckley. I am.
    Senator Whitehouse. Okay.
    Mr. Buckley. Yes. Thank you.
    Senator Whitehouse. That's the only question I had. I 
enjoyed talking with you and look forward to working with you 
in your new position.
    I want to thank you for your many years of government 
service in a variety of different organizations and, despite 
your presumably more lucrative tenure in the private sector, 
your willingness to step away from that and return to the 
service of your country in this role. And it may have been 
with--I gather you have three children in college.
    Mr. Buckley. I do, Senator.
    Senator Whitehouse. So it's a fairly consequential choice 
for you to have made, and I want you to know that I appreciate 
it; I believe all of us appreciate it.
    Mr. Buckley. Thank you. I'm honored.
    Chairman Feinstein. Thank you very much, Senator 
Whitehouse. I'm glad you made that statement. I know that both 
the Vice Chairman and I concur with it, and we, too, thank you, 
Mr. Buckley.
    Senator Wyden is on his way. I beg your pardon. He just 
entered the room. While he is walking up to the podium, let me 
ask you this. As you use your prior experience and as you 
review the powers of the CIA IG, do you believe you have all 
the authority that you would need to proceed in a vigorous and 
effective way?
    Mr. Buckley. Madam Chair, as I understand the authorities 
of the office today and the mission that lies ahead and the 
mission that the good employees of that office are performing 
today, I believe so. However, as I indicated, I think it's 
important to take a look at, today, 2010, what the position of 
the office and the authorities of the office require. And I 
will come back to you if I see any deficiencies in those 
authorities.
    Chairman Feinstein. Thank you.
    Senator Wyden.
    Senator Wyden. Thank you. Thank you, Madam Chair. Thanks to 
you and the Vice Cair for holding this open. As you know, I've 
taken a great interest in this position over the years and very 
much appreciate your holding this hearing.
    In 2007, the former CIA Director began his own inquiry into 
the operations of the CIA Inspector General's Office. As you 
know, I was quite outspoken in terms of taking objection to 
this approach, this type of inquiry because I was of the view 
it posed a direct threat to the Inspector General's 
independence. I made it clear that I would do everything I 
could to oppose this kind of approach. Other members of the 
Committee voiced their objections as well, and the inquiry was 
terminated.
    Now, in your response to the pre-hearing questionnaire, you 
stated that you do not believe it's appropriate for agency 
heads to investigate their own Inspector General, and you 
suggest a number of ways that agency heads can properly address 
their concerns about inspectors general without resorting to 
what in my view is an extremely inappropriate step.
    So my question is, if a future CIA Director decides that 
they are unhappy with the Inspector General and wants to 
undermine the office's independence, my sense is we're not 
going to see anything quite as ham-handed as what we saw 
before, somebody just going out and opening their own 
investigation.
    But it's certainly easy to think that there would be more 
subtle ways that the Director could try to undermine an 
Inspector General to limit the Inspector General's activities. 
They could, for example, restrict access to certain personnel. 
They could attempt to limit the resources that an office has or 
use classification as an excuse for limiting the Inspector 
General's access to information.
    My question to you is, if you are confirmed as Inspector 
General, and a future director begins to undermine your 
office's independence and your effectiveness, how would you 
respond to something like that?
    Mr. Buckley. Thank you, Senator Wyden. I appreciate that 
question. My first response would be to discuss the matter with 
the Director and to let him know--him or her--my position on 
the matter. Presuming, based on your question, that it was the 
intent to subtly undermine the office, my first stop would be 
right here. I think that the first place that I would turn are 
the Committees. I presume that an intermediate step could be 
the Director of National Intelligence, but within the statute, 
I believe that the Committee is the right place to start if I 
perceive the undermining of the office's authorities or its 
independence, whether they be subtle through budget or space, 
or access to information or personnel.
    Senator Wyden. The question, also if I might, with respect 
to the release of Inspector General reports. The Inspector 
General's Office produces a lot of audits and reports that are 
routine, where the office is basically providing management 
consulting to the rest of the CIA, but it also generates a 
modest number of reports that are of significant national 
interest. And I have felt for some time that it's important to 
make appropriately redacted versions of these reports available 
to the public.
    One in particular is the Inspector General's report that 
was done a number of years ago on the CIA's activities in the 
run-up to 9/11. Senator Bond and I had to work for years and 
years to get this report declassified. We thought it was of 
significant historical value. It made the case for a number of 
reforms that Congress tried to implement. And as the two of us 
worked on a bipartisan basis to declassify the report, it 
wasn't exactly clear who was responsible for balancing the 
CIA's natural almost penchant for secrecy with the need to 
determine whether disclosure would be in the public interest.
    In your view, how would you go about striking that balance? 
How should that balance be struck?
    Mr. Buckley. Senator, as you know, the authority to 
classify information does not rest with the Inspector General. 
And if the Agency is appropriately classifying information--
we'll just start there, if you don't mind--and the matter is 
appropriately classified and plain on its face that it should 
be so, in order to declassify the information--make it either 
through a redaction or declassification--we have to rely upon 
the Director or whoever the classification authority is to make 
that determination.
    And, as the Inspector General, I will work with you and 
with the Agency to make sure that the reports that my office 
produces will be relevant and informative to the folks that 
need the information--the Director and the Committees. And then 
if an effort is made to declassify those or required to 
declassify or redact, I will certainly participate 
wholeheartedly in that endeavor.
    Senator Wyden. Madam Chair, I had one additional question. 
Would it be appropriate to ask it at this time?
    Chairman Feinstein. It certainly would be.
    Senator Wyden. Okay. One last question with respect to 
legal interpretations you all do, and I want to put it in the 
context of some of the discussion about interrogations. In 
2004, the CIA Inspector General conducted a special review of 
the CIA detention and interrogation program. Much of that 
analysis is still classified, but anyone who reads the 
unclassified version can see that the Inspector General's 
Office conducted its own independent analysis of CIA 
interrogations, the meaning of various laws with respect to 
torture.
    And I think it would be fair to say that the Office of the 
Inspector General didn't necessarily agree with all of the 
legal conclusions that were reached by the CIA General 
Counsel's office. And I think it's also clear today that the 
CIA General Counsel's office made some mistakes, costly 
mistakes, by relying on questionable legal opinions from the 
Department of Justice, rather than on legal analysis that would 
actually stand up to public scrutiny.
    So my question is, do you believe that it is appropriate 
for the Office of the CIA Inspector General to conduct its own 
legal analysis, rather than to rely on the conclusions of the 
CIA General Counsel?
    Mr. Buckley. Thank you, Senator. As you know, the CIA 
General Counsel is the chief legal officer for the Director, 
for the Central Intelligence Agency. That said, yes, I believe 
that it is appropriate to review underpinnings of activities, 
whether they're legal or policy in nature. And if it's based on 
a legal interpretation, the Office of the Inspector General has 
their own attorneys. And yes, I think it's fair game to be able 
to look at those.
    Senator Wyden. And who would you notify if you thought that 
the CIA General Counsel was wrong? We all know what the 
politics of this are, and I'm not going to try to drag in the 
Bybee memo and things of this nature. But I do want to know, if 
you thought that the CIA General Counsel was wrong, who would 
you notify?
    Mr. Buckley. I would notify the Director first, and if I 
learned or we felt, the office felt that the wrong 
interpretation or the apparent interpretation was leading to 
activities that we thought were improper, I believe that might 
raise to a serious deficiency as outlined in the statute, which 
would require a written notification to the Congress.
    Senator Wyden. Thank you, Madam Chair.
    Chairman Feinstein. Thank you, Senator.
    Just an additional question, if you'd like to ask. I'm 
finished.
    Vice Chairman Bond. Two general areas. Ten years ago 
President Clinton directed major intelligence agencies to 
produce auditable financial statements. I used to be an 
auditor. I thought that was great. So far, only NRO's financial 
statements have received a clean opinion. CIA's statement got a 
disclaimer of opinion, auditor-speak of an F.
    How important do you think it is for the CIA to achieve 
clean financial statements to prevent fraud, waste, abuse? What 
can you do to help the CIA achieve that goal?
    Mr. Buckley. Thank you, Vice Chairman. I agree that the 
books and records of any agency, but particularly an 
intelligence agency, need to balance. And having not seen the 
audit reports--or the financial statements, for that matter--I 
can only envision some of the things that might cause a problem 
in balancing those books from an auditor perspective.
    But to answer your question, I will work closely with the 
chief financial officer, and obviously our audit staff does 
today and will continue to work closely with the CIA's CFO to 
get those books and records in an auditable format so they can 
be audited without disclaimer, or without at least a material 
disclaimer.
    Vice Chairman Bond. All right. Let's see.
    We're also interested in assuring that the CIA is 
accountable. We need to have a culture of personal 
accountability. Do you have any ideas on establishing 
accountability, or what do you think are the necessary 
ingredients, and what can you as CIA OIG leader do to establish 
and oversee the procedures to make sure they work?
    Mr. Buckley. Yes, sir. Well, I'm a big proponent of 
accountability in service and in deed. I will just speak, I 
guess, from an investigation standpoint. As the office conducts 
investigations, it obviously is going to find shortcomings in 
personal behavior. I think it's an important role of the 
Inspector General not so much to recommend the course of action 
that might be indicated based on the misbehavior, but to make 
sure that appropriate action is taken by the authority that has 
that responsibility.
    So the first thing that I would recommend is to take a look 
and see if you've got a pattern or practice of not holding 
people accountable. You can do that through an audit, by 
looking back, what's the pattern of practice based on the 
activities, the investigations, audits or inspections that have 
indicated impropriety, and where accountability has been 
recommended. Then you can figure out if you've got a pattern or 
if you've got just a one- or two-off type of situation.
    And the second thing is to actually track the activity or 
the action taken based on the investigation that's been 
referred for action, and that's something that I think is the 
responsibility of the Inspector General, to make sure that the 
work product is being used effectively, first of all. Are we 
giving them a quality product that they can base action upon, 
and are they taking appropriate action, and keep a record of 
that and report that information as appropriate.
    Vice Chairman Bond. I might just add by way of a side note 
that we have seen in other areas of the IC where somebody who 
has botched a job has moved out and up to get that person out 
of a job and give them an even better assignment, which has 
raised hackles and I think has not served the community well.
    Well, I thank you, Mr. Buckley, and wish you well.
    Chairman Feinstein. Thank you. Thank you very much, Mr. 
Vice Chairman.
    Thank you, Mr. Buckley. You've been straightforward, 
concise and direct and it's very much appreciated.
    It is my hope, Members, to have Mr. Buckley's nomination 
confirmed by the full Senate prior to the upcoming recess, so 
I'd like to ask that any Members with remaining questions 
submit those questions by Thursday noon. That's two or three 
hours short of 48 hours. And then the Committee can vote on the 
nomination not later than next Tuesday. So that's agreeable, 
and we will proceed along those lines.
    And I thank you very much, and your family. My sense is you 
will be confirmed and we wish you a very, very good and strong 
tenure. So thank you very much.
    Mr. Buckley. Thank you.
    Chairman Feinstein. The meeting is adjourned.
    [Whereupon, at 3:43 p.m., the Committee adjourned.]
                         Supplemental Material

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                  <all>

</pre></body></html>
